Case 19-2612, Document 41, 03/12/2020, 2800195, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
12th day of March, two thousand twenty.

Shawn Woodward,
Plaintiff - Appellant,

ORDER
Docket No. 19-2612

v.

Dr. Ali, Muslim Chaplain; Coxsackie
Correctional Facility, Stevenson, C.O.,
Defendants - Appellees.
By order dated January 29, 2020, the Court directed Appellant to either move in the
district court for free transcripts, obtain and pay the court reporter for any required transcripts, or
submit a letter to this Court certifying no transcripts are needed to proceed with the appeal. The
January 29 order stated that if Appellant failed to comply with the order within 30 days, the
appeal will be dismissed. Appellant has failed to submit any of the above-mentioned documents.
Upon consideration thereof,
IT IS HEREBY ORDERED that the appeal is DISMISSED for Appellant’s failure to
comply with the Court’s January 29, 2020 order.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

Case 9:13-cv-01304-DJS Document 240 Filed 07/24/19 Page 1 of 2

*****

UNITED STATES DISTRICT COURT •k

NORTHERN

it * * *

NEW YORK

DISTRICT OF

JUDGMENT IN A CIVIL CASE
DOCKET NO. 9:13-CV-1304 (DJS)
SHAWN WOODWARD,
Plaintiff,
v.
DR. MOHAMMED ALI and
WAYNE STEVENSON,
Defendant(s).

_____XX_____JURY VERDICT. This action came before the Court for a trial by Jury. The issues have
been tried and the Jury has rendered its verdict.
_________ DECISION by COURT. This action came to trial or hearing before the Court. The issues have
been tried and a decision has been rendered.
IT IS ORDERED and ADJUDGED that in the above entitled action, after the completion of a Jury Trial
before Magistrate Judge Daniel J. Stewart on July 23,2019, the Jury finds in favor of the Defendants with
a verdict of no cause. Accordingly, the action is DISMISSED in its ENTIRETY, and Judgment is entered
in favor of Defendants Dr. Mohammed Ali and Wayne Stevenson.

DATE:

July 24. 2019
Clerk of Court

s/Maria A. Blunt
Deputy Clerk

Additional material
from this filing is
available in the
Clerk's Office.

